      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




October 7, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Review of Medicaid Claims Submitted by Continuing Day Treatment Providers in
              New York State (A-02-09-01023)


Attached, for your information, is an advance copy of our final report on Medicaid claims
submitted by continuing day treatment providers in New York State. We will issue this report to
New York State Department of Health within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or James
P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or through
email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01023.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

October 12, 2011

Report Number: A-02-09-01023

Nirav R. Shah, M.D., M.P.H.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Shah:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Claims Submitted by Continuing Day
Treatment Providers in New York State. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kevin W. Smith, Audit Manager, at (518) 437-9390, extension 232, or through email at
Kevin.Smith@oig.hhs.gov. Please refer to report number A-02-09-01023 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Nirav R. Shah, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF MEDICAID CLAIMS
SUBMITTED BY CONTINUING DAY
  TREATMENT PROVIDERS IN
      NEW YORK STATE




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-02-09-01023
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within DOH, the Office of Medicaid Management
administers the Medicaid program.

Section 1905(a)(9) of the Act authorizes “clinic services” furnished by or under the direction of a
physician. Federal regulations (42 CFR § 440.90) define clinic services as “… preventive,
diagnostic, therapeutic, rehabilitative, or palliative services that are furnished by a facility that is
not part of a hospital but is organized and operated to provide medical care to [recipients].”

The State elected to include Medicaid coverage of day treatment services, a form of clinic
services, among its Licensed Outpatient Programs, which are administered by its Office of
Mental Health (OMH). OMH’s continuing day treatment (CDT) program provides active
treatment to Medicaid recipients designed to maintain or enhance current levels of functioning
and skills, to maintain community living, and to develop self-awareness and self-esteem through
the exploration and development of strengths and interests. CDT services include assessment
and treatment planning, discharge planning, medication therapy, case management, psychiatric
rehabilitation, and activity therapy, among others. To be eligible for the CDT program, the
recipient must have a designated mental illness diagnosis and a dysfunction due to mental illness.
CDT services are provided in hospital and nonhospital settings.

Pursuant to State requirements for Medicaid reimbursement of CDT services, a recipient’s
treatment plan must: (1) be completed in a timely manner, (2) be signed and approved by the
recipient, (3) include criteria for discharge planning, and (4) be reviewed every 3 months. In
addition, CDT services must be adequately documented (including type and duration of services)
and provided in accordance with the recipient’s treatment plan.

OBJECTIVE

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
CDT services provided by nonhospital providers in the State in accordance with Federal and
State requirements.




                                                   i
SUMMARY OF FINDINGS

DOH did not claim Federal Medicaid reimbursement for CDT services provided by nonhospital
providers in the State in accordance with State requirements. Of the 100 claims in our random
sample, all claims complied with Federal requirements and 43 claims complied with Federal and
State requirements, but 57 claims did not comply with State requirements.

Of the 57 noncompliant claims, 10 contained more than 1 deficiency:

       •   For 43 claims, the type of service was not documented.

       •   For eight claims, progress notes were not properly recorded.

       •   For seven claims, the duration of the recipient’s contact with staff was not indicated.

       •   For three claims, the treatment plan was not completed in a timely manner.

       •   For three claims, the treatment plan was incomplete.

       •   For two claims, service hours were improperly calculated.

       •   For one claim, the recipient’s participation in treatment planning was not
           documented.

       •   For one claim, the treatment plan was not reviewed in a timely manner.

       •   For one claim, CDT services were not provided.

These deficiencies occurred because: (1) certain nonhospital CDT providers did not comply
with State regulations and (2) DOH did not ensure that OMH adequately monitored the CDT
program for compliance with certain State requirements.

Based on our sample results, we estimate that DOH improperly claimed $84,366,929 in Federal
Medicaid reimbursement during our January 1, 2005, through December 31, 2008, audit period.

RECOMMENDATIONS

We recommend that DOH:

       •   refund $84,366,929 to the Federal Government,

       •   work with OMH to issue guidance to the provider community regarding State
           requirements for claiming Medicaid reimbursement for CDT services, and

       •   work with OMH to improve OMH’s monitoring of the CDT program to ensure
           compliance with State requirements.


                                                ii
DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH disagreed with our first recommendation
(financial disallowance) and did not indicate concurrence or nonconcurrence with our remaining
recommendations. Specifically, DOH stated that we based our findings entirely on State
regulations and that we should afford DOH the discretion to interpret its own regulations. DOH
stated that, if OMH found a provider’s claims to not be in compliance with the State regulations
we cited, it “would not have rendered the services non-reimbursable under the same regulations
applied by OIG.”

DOH also stated that, for the 43 sampled claims for which the provider did not document that at
least 1 Medicaid reimbursable CDT service was delivered on the sampled service date, providers
furnished us with a schedule of the group services provided to each client for each day the client
attended the CDT program. DOH stated that these schedules documented the “frequency and the
types of services planned for the individual.” Providers furnished us with progress notes that
recorded clients’ “general attendance and progress in group therapies.” DOH further stated that,
in audits of 2 providers associated with 15 of the 43 sampled claims, the New York State Office
of Medicaid Inspector General (OMIG) concluded that the 2 providers maintained sufficient
documentation to support that they had provided Medicaid-eligible services.

In addition, DOH stated that it disputes our findings related to 8 other types of documentation
deficiencies related to 26 sampled claims. For one sampled claim (claim number 17), DOH
stated that we indicated that the progress note was written by someone who did not actually
provide a service during the relevant 2-week period. However, DOH stated that the client’s
therapist wrote the progress note and that our workpapers supported the therapist’s “active
involvement in providing services” during the 2-week period, as the therapist made several
outreach telephone calls.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The schedules provided to us indicated planned CDT services.
These schedules did not document that services were actually performed and, in many cases, did
not include the date (month or year) of the planned services. In one case, the schedule, although
dated, was prepared 1 year before the date of the sampled service. In addition, the biweekly
progress notes indicating “general attendance” were often just a summation of the prior 2 weeks
without any specific information regarding a particular day, including our sampled date of
service. Regarding the two OMIG audits cited by DOH, we discussed OMIG’s methodology and
conclusions with OMIG officials. We maintain that our results regarding the two providers are
valid.

Regarding claim number 17, we note that the beneficiary received CDT services on only 2 days
during the 2-week period. Based on documentation provided, the therapist who signed the
progress note did not provide a Medicaid-reimbursable service to the beneficiary on the 2 days
the client attended the CDT program or at any other time during the 2-week period covered by
the progress note.

DOH’s comments appear in their entirety as Appendix D.
                                                iii
                                                      TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            Federal and State Requirements Related to Continuing Day Treatment
             Services ...........................................................................................................1
            New York State’s Continuing Day Treatment Program ....................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope ..................................................................................................................2
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          TYPE OF SERVICES NOT DOCUMENTED .......................................................4

          PROGRESS NOTES NOT PROPERLY RECORDED ..........................................5

          DURATION OF RECIPIENT’S CONTACT WITH STAFF NOT
            INDICATED ......................................................................................................5

          TREATMENT PLAN NOT COMPLETED IN A TIMELY MANNER ................5

          TREATMENT PLAN INCOMPLETE....................................................................5

          SERVICE HOURS IMPROPERLY CALCULATED ............................................6

          RECIPIENT PARTICIPATION IN TREATMENT PLANNING NOT
            DOCUMENTED................................................................................................6

          TREATMENT PLAN NOT REVIEWED IN A TIMELY MANNER ...................6

          SERVICES NOT PROVIDED ................................................................................6

          CAUSES OF UNALLOWABLE CLAIMS ............................................................7
            Certain Providers Did Not Comply With State Regulations .............................7
            Inadequate Monitoring by Office of Mental Health ..........................................7

          ESTIMATE OF THE UNALLOWABLE AMOUNT.............................................7

          RECOMMENDATIONS .........................................................................................7



                                                                      iv
    DEPARTMENT OF HEALTH COMMENTS ........................................................7

    OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................8

APPENDIXES

    A: FEDERAL AND STATE REQUIREMENTS RELATED TO CONTINUING
        DAY TREATMENT SERVICES

    B: SAMPLE DESIGN AND METHODOLOGY

    C: SAMPLE RESULTS AND ESTIMATES

    D: NEW YORK STATE DEPARTMENT OF HEALTH COMMENTS




                                              v
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within DOH, the Office of Medicaid Management
administers the Medicaid program. DOH uses the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system, to process and pay
Medicaid claims.

Federal and State Requirements Related to Continuing Day Treatment Services

Section 1905(a)(9) of the Act authorizes “clinic services” furnished by or under the direction of a
physician. Federal regulations (42 CFR § 440.90) define clinic services as “… preventive,
diagnostic, therapeutic, rehabilitative, or palliative services that are furnished by a facility that is
not part of a hospital but is organized and operated to provide medical care to [recipients].”
Whereas these regulations broadly define Federal requirements for what clinic services are
eligible for Federal reimbursement, States may impose more specific standards (e.g., through
Medicaid State plans, State regulations) for what services are eligible for Medicaid
reimbursement.

Under the New York Medicaid State plan, DOH elects to include coverage of day treatment
services, a form of clinic services, among the State’s Licensed Outpatient Programs, which are
administered by its Office of Mental Health (OMH). 1

Title 14 §§ 587-588 and Title 18 § 505.25 of the New York Compilation of Codes, Rules,
& Regulations (NYCRR) establish requirements for Medicaid reimbursement for the continuing
day treatment (CDT) program, as well as standards for CDT care and treatment planning. 2
Pursuant to these requirements, a recipient’s treatment plan must: (1) be completed in a timely
manner, (2) be signed and approved by the recipient, (3) include criteria for discharge planning,

1
 Although day treatment services are administered by OMH, providers submit claims for payment through the
MMIS. DOH then seeks Federal reimbursement for these claims through the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program.
2
 In April 2009, after our audit period, the State revised its requirements for Medicaid reimbursement of CDT
services, as well as its standards for CDT care and treatment planning.


                                                        1
and (4) be reviewed every 3 months. In addition, CDT services must be adequately documented
(including type and duration of services) and provided in accordance with the recipient’s
treatment plan.

New York State’s Continuing Day Treatment Program

OMH’s CDT program provides Medicaid recipients active treatment designed to maintain or
enhance current levels of functioning and skills, to maintain community living, and to develop
self-awareness and self-esteem through the exploration and development of strengths and
interests. 3 CDT services include assessment and treatment planning, discharge planning,
medication therapy, case management, psychiatric rehabilitation, and activity therapy, among
others. To be eligible for the CDT program, the recipient must have a designated mental illness
diagnosis and a dysfunction due to mental illness. 4 CDT services are provided in both hospital
and nonhospital settings.

Appendix A contains the specific Federal and State regulations related to CDT services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
CDT services provided by nonhospital providers in the State in accordance with Federal and
State requirements.

Scope

Our review covered 4,864,775 CDT claim lines, totaling $385,114,484 ($192,556,880 Federal
share), submitted by 95 nonhospital CDT providers in the State for the period January 1, 2005,
through December 31, 2008. (In this report, we refer to these lines as “claims.”)

During our audit, we did not review the overall internal control structure of DOH, OMH, or the
Medicaid program. Rather, we reviewed only the internal controls that pertained directly to our
objective.

We conducted fieldwork at DOH’s and OMH’s offices in Albany, New York; at the MMIS fiscal
agent in Rensselaer, New York; and at 45 nonhospital CDT providers’ offices throughout the
State.



3
 A primary function of the CDT program is to provide individually tailored treatment services that address
substantial skill deficits in specific life areas that interrupt an individual’s ability to maintain community living. The
configuration, frequency, intensity, and duration of services correspond to the Medicaid recipient’s progress in
achieving desired outcomes.
4
 Designated mental illness diagnoses are diagnoses other than alcohol or drug disorders, developmental disabilities,
organic brain syndromes, or social conditions.


                                                            2
Methodology

To accomplish our objective, we:

           •   reviewed applicable Federal and State regulations and guidelines;

           •   held discussions with OMH officials to gain an understanding of the CDT program;

           •   ran computer programming applications at the MMIS fiscal agent that identified a
               sampling frame of 5,104,839 CDT services claims, totaling $402,221,643
               ($201,109,884 Federal share), made by 101 nonhospital CDT providers;

           •   eliminated from the sampling frame all claims submitted by 6 nonhospital CDT
               providers identified in New York State Office of the Medicaid Inspector General
               (OMIG) audit reports covering our audit period; 5

           •   determined that our revised sampling frame contained 4,864,775 claims, totaling
               $385,114,484 ($192,556,880 Federal share), made by 95 nonhospital CDT providers;

           •   selected a simple random sample of 100 claims from the sampling frame of 4,864,775
               claims, 6 and for these 100 claims, we:

                   o reviewed the corresponding nonhospital CDT provider’s documentation
                     supporting the claim and

                   o interviewed officials at the corresponding nonhospital CDT provider to gain
                     an understanding of the provider’s policies for documenting and claiming
                     CDT services; and

           •   estimated the unallowable Federal Medicaid reimbursement paid in the population of
               4,864,775 claims.

Appendix B contains the details of our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




5
    OMIG audit numbers 08-2718, 07-4280, 07-4278, 07-3607, 07-3530, and 06-7638.
6
    The 100 sample items were claims submitted by a total of 45 nonhospital CDT providers.


                                                          3
                                FINDINGS AND RECOMMENDATIONS

DOH did not claim Federal Medicaid reimbursement for CDT services provided by nonhospital
providers in the State in accordance with State requirements. Of the 100 claims in our random
sample, all claims complied with Federal requirements and 43 claims complied with Federal and
State requirements, but 57 claims did not comply with State requirements. Of the 57 claims, 10
contained more than 1 deficiency. The table summarizes the deficiencies noted and the number
of claims that contained each type of deficiency.

                                Summary of Deficiencies in Sampled Claims

                                                                              Number of
                           Type of Deficiency                             Unallowable Claims 7
    Type of services not documented                                              43
    Progress notes not properly recorded                                           8
    Duration of recipient’s contact with staff not indicated                       7
    Treatment plan not completed in a timely manner                                3
    Treatment plan incomplete                                                      3
    Service hours improperly calculated                                            2
    Recipient participation in treatment planning not documented                   1
    Treatment plan not reviewed in a timely manner                                 1
    Services not provided                                                          1

These deficiencies occurred because: (1) certain nonhospital CDT providers did not comply
with State regulations and (2) DOH did not ensure that OMH adequately monitored the CDT
program for compliance with certain State requirements.

Based on our sample results, we estimated that DOH improperly claimed $84,366,929 in Federal
Medicaid reimbursement during our January 1, 2005, through December 31, 2008, audit period.

TYPE OF SERVICES NOT DOCUMENTED

Pursuant to 14 NYCRR § 587.18(b)(7), a recipient’s case record shall be available to all
outpatient program staff who are participating in the recipient’s treatment and shall include the
date(s) of all onsite and offsite face-to-face contacts with the recipient, the type of service(s)
provided, and the duration of the contact(s). Pursuant to 18 NYCRR § 505.25(e)(5), every claim
for Medicaid-eligible services shall be for a documented, definable medical service that includes
a face-to-face professional exchange between provider and recipient in accordance with goals
stated in the recipient’s treatment plan. Pursuant to 18 NYCRR § 505.25 (h)(1)(ii), State
reimbursement shall be available when documentation shows that at least one Medicaid
reimbursable service has been delivered for each billable occasion of service.



7
    The total exceeds 57 because 10 claims contained more than 1 error.


                                                           4
For 43 of the 100 claims in our sample, the nonhospital CDT provider could not document that at
least 1 Medicaid reimbursable CDT service was delivered on the date of the sampled service.
Specifically, for these claims, providers could document only the duration of the visit
(i.e., sign-in sheets) but not the type of CDT service provided.

PROGRESS NOTES NOT PROPERLY RECORDED

Pursuant to 14 NYCRR § 587.16(f)(2), progress notes for each recipient shall be recorded at
least every 2 weeks by the clinical staff members who provided CDT services to the recipient.

For 8 of the 100 claims in our sample, progress notes were maintained by the nonhospital CDT
provider; however, the progress notes were not recorded by a clinical staff member who actually
provided a CDT service during the 2-week period that included our sampled service.

DURATION OF RECIPIENT’S CONTACT WITH STAFF NOT INDICATED

Pursuant to 14 NYCRR § 587.18(b)(7), a recipient’s case record shall be available to all
outpatient program staff who are participating in the recipient’s treatment and shall include the
date(s) of all onsite and offsite face-to-face contacts with the recipient, the type of service(s)
provided, and the duration of the contact(s).

For 7 of the 100 claims in our sample, the corresponding case record did not indicate the duration
of the recipient’s contact with outpatient program staff.

TREATMENT PLAN NOT COMPLETED IN A TIMELY MANNER

Pursuant to 14 NYCRR § 588.7(d), a recipient’s treatment plan shall be completed before the
recipient’s 12th visit after admission or within 30 days of admission, whichever occurs first.

For 3 of the 100 claims in our sample, the recipient’s treatment plan was not completed before
the recipient’s 12th visit after admission or within 30 days of admission.

TREATMENT PLAN INCOMPLETE

Pursuant to 14 NYCRR § 587.16(e), a recipient’s treatment plan shall include criteria for
discharge planning.

For 3 of the 100 claims in our sample, the treatment plan did not contain criteria for discharge
planning.




                                                 5
SERVICE HOURS IMPROPERLY CALCULATED

Pursuant to 14 NYCRR § 588.5(h), service hours shall be determined by rounding to the nearest
full hour once the minimum billable period has occurred. 8

For 2 of the 100 claims in our sample, service hours were not properly calculated once the
minimum billable period had occurred. Specifically, one claim was rounded up by 45 minutes
(from 2 hours and 15 minutes to 3 hours) and a second claim was rounded up by a full hour
(from 3 hours to 4 hours).

RECIPIENT PARTICIPATION IN TREATMENT PLANNING NOT DOCUMENTED

Pursuant to 14 NYCRR § 587.16(c), recipient participation in treatment planning and approval of
the plan shall be documented by the recipient’s signature. If a recipient cannot participate in
treatment planning and/or approval of the treatment plan, reasons for the recipient’s
nonparticipation shall be documented in the case record.

For 1 of the 100 claims in our sample, the treatment plan did not contain the recipient’s
signature, and the case record did not document reasons for the recipient’s nonparticipation.

TREATMENT PLAN NOT REVIEWED IN A TIMELY MANNER

Pursuant to 14 NYCRR § 588.7(d), a recipient’s treatment plan shall be reviewed every
3 months.

For 1 of the 100 claims in our sample, the recipient’s treatment plan was not reviewed every
3 months. Specifically, nearly 5 months passed between the preparation of the recipient’s
treatment plan and the date a psychiatrist reviewed the plan.

SERVICES NOT PROVIDED

Pursuant to 14 NYCRR § 588.5(c), reimbursement shall be made only for services identified and
provided in accordance with the recipient’s treatment plan.

For 1 of the 100 claims in our sample, reimbursement was made for CDT services that were not
provided. Specifically, the recipient’s chart indicated that, on the date of the sampled claim, the
recipient worked at a store operated by the nonhospital CDT provider for the total duration of her
visit to the facility and did not receive CDT services that day. Provider officials confirmed that
the recipient did not receive CDT services on the date of the sampled claim.




8
  In April 2009, after our audit period, the State revised its requirements for Medicaid reimbursement of CDT
services, as well as standards for CDT care and treatment planning. For example, only the actual time that a
recipient is in attendance at the CDT program is counted toward the CDT service (i.e., time is not rounded).


                                                         6
CAUSES OF UNALLOWABLE CLAIMS

Certain Providers Did Not Comply With State Regulations

Of the 45 nonhospital CDT providers included in our review, 20 did not document the type of
CDT services billed to Medicaid. These 20 providers submitted 43 of the 57 sample items
determined to be in error. In addition, other nonhospital CDT providers did not comply with
State regulations concerning the documentation of recipients’ clinical progress and/or contact
with outpatient program staff.

Inadequate Monitoring by Office of Mental Health

DOH did not ensure that OMH adequately monitored nonhospital CDT providers for compliance
with certain State requirements. Although OMH conducts periodic onsite monitoring visits at
providers to review case records for compliance with applicable State regulations, OMH’s
monitoring program did not ensure that providers complied with State requirements.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 CDT services claims sampled, 57 were not made in accordance with State
requirements. Based on our sample results, we estimated that DOH improperly claimed
$84,366,929 in Federal Medicaid reimbursement during our January 1, 2005, through
December 31, 2008, audit period. The details of our sample results and estimates are shown in
Appendix C.

RECOMMENDATIONS

We recommend that DOH:

       •   refund $84,366,929 to the Federal Government,

       •   work with OMH to issue guidance to the provider community regarding State
           requirements for claiming Medicaid reimbursement for CDT services, and

       •   work with OMH to improve OMH’s monitoring of the CDT program to ensure
           compliance with State requirements.

DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, DOH disagreed with our first recommendation
(financial disallowance) and did not indicate concurrence or nonconcurrence with our remaining
recommendations. Specifically, DOH stated that we based our findings entirely on State
regulations and that we should afford DOH the discretion to interpret its own regulations. DOH
stated that, if OMH found a provider’s claims to not be in compliance with the State regulations
we cited, it “would not have rendered the services non-reimbursable under the same regulations
applied by OIG.”


                                                7
DOH also stated that, for the 43 sampled claims for which the provider did not document that at
least 1 Medicaid reimbursable CDT service was delivered on the sampled service date, providers
furnished us with a schedule of the group services provided to each client for each day the client
attended the CDT program. DOH stated that these schedules documented the “frequency and the
types of services planned for the individual.” Providers furnished us with progress notes that
recorded clients’ “general attendance and progress in group therapies.” DOH further stated that,
in audits of 2 providers associated with 15 of the 43 sampled claims, OMIG concluded that the 2
providers maintained sufficient documentation to support that they had provided Medicaid-
eligible services.

In addition, DOH stated that it disputes our findings related to 8 other types of documentation
deficiencies related to 26 sampled claims. For one sampled claim (claim number 17), DOH
stated that we indicated that the progress note was written by someone who did not actually
provide a service during the relevant 2-week period. However, DOH stated that the client’s
therapist wrote the progress note and that our workpapers supported the therapist’s “active
involvement in providing services” during the 2-week period, as the therapist made several
outreach telephone calls.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The schedules provided to us indicated planned CDT services.
These schedules did not document that services were actually performed and, in many cases, did
not include the date (month or year) of the planned services. In one case, the schedule, although
dated, was prepared 1 year before the date of the sampled service. In addition, the biweekly
progress notes indicating “general attendance” were often just a summation of the prior 2 weeks
without any specific information regarding a particular day, including our sampled date of
service. Regarding the two OMIG audits cited by DOH, we discussed OMIG’s methodology and
conclusions with OMIG officials. We maintain that our results regarding the two providers are
valid.

Regarding claim number 17, we note that the beneficiary received CDT services on only 2 days
during the 2-week period. Based on documentation provided, the therapist who signed the
progress note did not provide a Medicaid-reimbursable service to the beneficiary on the 2 days
the client attended the CDT program or at any other time during the 2-week period covered by
the progress note.

DOH’s comments appear in their entirety as Appendix D.




                                                8
APPENDIXES
                                                                                        Page 1 of 3


    APPENDIX A: FEDERAL AND STATE REQUIREMENTS RELATED TO
              CONTINUING DAY TREATMENT SERVICES

•   Section 1902(a)(27) of the Social Security Act (the Act) specifies that a:

            State plan for medical assistance must … provide for agreements
            with every person or institution providing services under the State
            plan under which such person or institution agrees (A) to keep
            such records as are necessary fully to disclose the extent of the
            services provided to individuals receiving assistance under the
            State plan, and (B) to furnish the State agency or the Secretary
            with such information, regarding any payments claimed by such
            person or institution for providing services under the State plan, as
            the State agency or the Secretary may from time to time
            request ….

•   Section 1905(a)(9) of the Act authorizes “clinic services” furnished by or under the
    direction of a physician.

•   Federal regulations at 42 CFR § 440.180(b) specify that “Home or community-based
    services may include the following services, as they are defined by the agency and
    approved by CMS: …(8) Day treatment or other partial hospitalization services,
    psychosocial rehabilitation services and clinical services (whether or not furnished in a
    facility) for individuals with chronic mental illness ….”

•   Federal regulations at 42 CFR § 440.90 specify that “Clinic services means preventive,
    diagnostic, therapeutic, rehabilitative, or palliative services that are furnished by a facility
    that is not part of a hospital but is organized and operated to provide medical care to
    outpatients. The term includes the following services furnished to outpatients:
    (a) Services furnished at the clinic by or under the direction of a physician or dentist.”

•   Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
    Local, and Indian Tribal Governments (2 CFR part 225) establishes principles and
    standards for determining allowable costs incurred by State and local governments under
    Federal awards. Section C.1.c. of Attachment A of those principles says that to be
    allowable, costs must be authorized or not prohibited by State or local laws or
    regulations.

•   Title 18 § 505.25(e)(5) of the New York Compilation of Codes, Rules, & Regulations
    (NYCRR) specifies that for “Services coverable under the Medical Assistance Program
    …. (5) All reimbursable billings shall only be for a documented, definable medical
    service of face-to-face professional exchange between provider and client, or collateral,
    in accordance with goals stated in the treatment plan.”
                                                                                     Page 2 of 3


•   18 NYCRR § 505.25 (h)(1-2) states:

           Reimbursement. (1) State reimbursement shall be available for
           expenditures made in accordance with the provisions of this
           section and when the following conditions are met: (i)
           documentation by a physician that treatment is appropriate and
           necessary; (ii) documentation that at least one Medicaid
           reimbursable service has been delivered for each billable occasion
           of service; (iii) services are provided by staff designated as
           appropriate by regulations of the Office of Mental Health; (iv)
           except for crisis services, the location of service is documented in
           the recipient’s record and off-site service is justified; and (v)
           utilization review policies and procedures, acceptable to the Office
           of Mental Health, are operative. (2) State reimbursement shall be
           available, at fees approved by the New York State Director of the
           Budget ….

•   14 NYCRR § 587.10 specifies that only allowable services are included in the hours
    billed to Medicaid.

•   14 NYCRR § 587.16(c) specifies that “Recipient participation in treatment planning by
    an adult and approval of the plan shall be documented by the recipient’s signature.
    Reasons for non-participation and/or approval by the recipient shall be documented in the
    case record.”

•   14 NYCRR § 587.16(e)(1-5) specifies that “The treatment plan shall include, but need
    not be limited to, the following: (1) the signature of the physician involved in the
    treatment; (2) the recipient’s designated mental illness diagnosis; (3) the recipient’s
    treatment goals, objectives and related services; (4) plan for the provision of additional
    services to support the recipient outside of the program; and (5) criteria for discharge
    planning.”

•   14 NYCRR § 587.16(f) specifies that “Progress notes shall be recorded by the clinical
    staff member(s) who provided services to the recipient.”

•   14 NYCRR § 587.18(b)(7) specifies that “The case record shall be available to all staff of
    the outpatient program who are participating in the treatment of the recipient and shall
    include the following information; … (7) record and date of all on-site and off-site face to
    face contacts with the recipient, the type of service provided and the duration on contact.”

•   14 NYCRR § 588.5(c) specifies that “Reimbursement shall only be made for services
    identified and provided in accordance with an individual treatment plan or psychiatric
    rehabilitation service plan as defined in paragraphs 587.4(c)(27) and (16) of this Title.”

•   14 NYCRR § 588.5(h) specifies that “Service hours shall be determined by rounding to
    the nearest full hour once the minimum billable period has occurred, except for
                                                                                     Page 3 of 3


    pre-admission visits and crisis visits to a partial hospitalization program which shall be
    minimum of one hour.”

•   14 NYCRR § 588.7(d) specifies that “The treatment plan required pursuant to
    section 587.16 of this Title shall be completed prior to the twelfth visit after admission or
    within 30 days of admission, whichever occurs first. Review of the treatment plan shall
    be every three months.”
               APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was continuing day treatment (CDT) services claim lines (claims) submitted by
95 providers in New York State (the State) during our January 1, 2005, through December 31,
2008, audit period that were claimed for Federal Medicaid reimbursement by the State
Department of Health.

SAMPLING FRAME

The sampling frame was a computer file containing 4,864,775 detailed claim lines for CDT
services submitted by 95 nonhospital-based providers in the State during our audit period. The
total Medicaid reimbursement for the 4,864,775 claims was $385,114,484 ($192,556,880 Federal
share). The Medicaid claims were extracted from the claims’ files maintained at the Medicaid
Management Information System fiscal agent.

SAMPLING UNIT

The sampling unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the 4,864,775 detailed claims. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
            APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                           Sample Details and Results
                                                                         Value of
              Value of                                                  Unallowable
                                         Value of
               Frame                                    Unallowable       Claims
Claims in                   Sample        Sample
              (Federal                                    Claims         (Federal
 Frame                       Size     (Federal Share)
               Share)                                                     Share)
4,864,775   $192,556,880      100          $3,950            57           $2,078


                          Estimated Unallowable Costs
             (Limits Calculated for a 90-Percent Confidence Interval)

                    Point Estimate                  $101,093,916
                    Lower Limit                      $84,366,929
                    Upper Limit                     $117,820,903
                                                                                                                 Page 1 0 [ 6


APPENDIX D: NEW YORK STATE DEPARTMENT OF HEALTH COMMENTS 




                                             NEW YORK
                                               statt department of

     N irav R. Shah, M. D ., M .P.H.
     Commissioner 	
                                            ·HEALTH 	                                               Sue Kelly
                                                                                 Executive Deputy Commissioner




                                                              July 27, 20 11



    James P. Edert
    Regional Inspector General for Audit Services
    Department of Health and Human Services
    Region II
    Jacob Javitz Federal Building .
    26 Federal Plaza
    New York, New York 10278

                                                              Ref. No. A-02-09-0 1023
    Dear Mr. Edert:

           Enclosed are the New York State Department of Health's comments on the Department
    of Health and Human Services, Office of Inspector General's draft audit report A-02-09-0 I023
    on "Review of Medicaid Claims Submitted by Continuing Day Treatment Providers in New
    York State."

              Thank you for the opportuni ty to comment.

                                                              Sincerely,

                                                              ~~
                                                        5-"vRobert W. Reed
                                                            Deputy Commissioner
                                                               for Administration
    Enclosure

    cc: 	    Jason Helgerson
             James C. Cox
             Michael Hogan, Ph.D.
             Diane Christensen .
             Ken Lawrence
             Dennis Wendell 

             Stephen Abbott 

             Irene Myron 

             Ronald Farrell 




                                              HEALTH.NY.GOV
                                              laceboo k.com/NYSDOH
                                              twittar.tom/HealthNYGoy
                                                                                                    Page 2 of6




                New York State Department of Health 's 

                           Comments on the 

             Department of Health and Human Services 

                     Office of Inspector Genera l's 

                 Draft Audit Report A-02-09-01023 on 

              " Review of Medicaid Claims Submitted by 

       Continuing Day Treatment Providers in New York State" 


The following arc the New York Stale Department of Health's (Department) comments in
response to the Dcpartmenl"of l-lcalth and Human Services, Office of Inspector General's (DIG)
draft audit report A-02-09-01023 on "Review of Medicaid Claims Submitted by Continuing Day
Treatment Providers in New York State."

OVERV IEW

D IG reviewed a sample of 100 claims from the nearly 4.9 million claims reimbursed over the
four-year audit period, and found 57 ofthe claims non-reimbursable despite there being no
find ing that the corresponding services were not medically necessary. 010 extrapolated the
$3,950 in total federal share (FS) reimbursements associated with these-57 claims against the
$192,556;880 in total claim reimbursements (FS) to derive the $84,366,929 reoommended refund
amount.

The Department and the New York State Office of Mental Health (OMH) strongly disagree with
the recommendation for the State to refund $84,366,929 to the Federal Government on the basis
that OIG's underlying audit methodology is flawed. OIG issued its recommended disallowance
based entirely \Ipon State regulations. However, the type of violations alleged by 010, even had
they been violative of the regulatory provisions cited, would not have rendered the services non­
reimbursable under the same regu lat ions applied by OIG. Further, OIG misapplied these Slate
regulations, resulting in determinations of violations in some cases· based upon.doeumentation
which the New York State Office of the Medicaid Inspector General (OMIG) foood to be
compliant.                                                                     .

The State has hired an independent consultant, Behavioral and Organizational Consulting
Associates (BOCA), to rev iew each case disallowed 'by 010, and to obtain supporting
documentation to refute the disallowed clllims which will be provided to OIG as soon as
available.

Recommendation #1:

The Department o f Health should refund $84,366,929 to the Federal Government.

Response #1:

The Department and OMH strongly disagree with the recommendation for the State to refund
$84,366,929 to the Federal Government on Ihe basis that 01O's unde.rlying audit methodology is
flawed. The tyPe of violations alleged by OIG, even had they been violative oflhe regulatory
                                                                                                                        Page 3 of6




                                                            2


provisions cited, wo'u ld not have rendered the services non-reimbursable under the same
regulations applied by OIG. Rather, they would have resulted in alternative enforcement actions
by the State, as spccifically provided for in the regulations. It is only when a provider of service
does not meet the State's reimbursement rules and regu lations that OMH would make a referral
to the Department for the recovery ofan overpayment.

OMH maintains various means of monitoring and enforcing provider compliance with program
standards. These include requiring provider:s to submit a plan of correction addressing progrru:n
  deficiencies that have been identified by OMH; increasing the frequency of program inspections;
  the imposition of fines; and the limitation, and suspension or revocation ofthe provider's license.
  Title 14 § 587.22 of the New Yorlc Compilation of Codes, Rules, & Regulations (NYCCRR)
  makes this explicit by specifically providing that where OMH detennines a provider of service is
. not exercising due diligence in complying with Statc regulatory requirements pertaining to the
  program, OMH will issue notice of the deficiency to the provider, and may also either req uest
  that the provider prep~re a plan of correction, or OMH may provide technical assistance. If the
  provider fails to prepare an acceptable plan of correction within a reasonable time period or
  refuses to pennit OMH to provide ieclmical assistance or cffectively implement a plan of
  correction~ then it will be detenniried to be in violation of the program regulations. Such a
  detennination, as well as a failure to comply wit h the tenns ofthe provider's operating certificate
  or with the provisions of any applicable statute, rule or rcgulation, subjects the providcr to
  possible revocation, suspension or limitation of its operating certificate, or the imposition of a
  fine.

OIG based its rccommended refund amount entirely upon State regulations. In so doing,
however, it chose to 'ignore provisiollS ofthe regu lation it is purporting to enforc~. Furthennore,
because ~IG's findings are based solely on its own application of State regulations, rather than
on.any underlying Federal laws or regulations, the discretion ordinarily afforded the federal
Department of Health and Human Services to interpret the laws and regulations with which it is
eharged with enforcing does not apply. Rather, discretio n should be afforded to the Slate's
interpretation of its own regu lations l .



'Chevron U.S.A., Inc, v, Natural Rcsourees Defense CounciL Inc. 467 U.S , 831, 104 S. Ct. 2778. 81 L. Ed 2d 694
(Agency detenninatioos and statutOI)' interpretations, made in relation to areas in which the agency has particular
expertise, are to be affinned unl ess "unreasonable,"): Arif v, New York City Taxi and I-imousine Com'n, 3 A.P 3d
)45, 179 N,Y ,S, 24 344 0 - Dep'! 2004), leave to appeal granted, 2 N,Y. 3d 70S. 780 N,Y.S. 2d 311, 8 12 N E,2d
1261 (2904) Bnd appeal withdrawn, N.Y, 3d 669, 784 N.Y.S.2d 7. 8 17 N.E.2d 825 (2004) ("Where such a rational
basis exists, an adtilinistrative ag~ncy's conslroctiQn and interprelalioo of its own regulatimlS and of the statute
under which it functions arc entitled to great deference.") "It is well settled that the' constructiOh given statutes and
regulatiOTl$ by the agency responsible for th eir administration, if not irrational Qr unreasonable, should be upheld. "
Matler of Mounting & Finishing Co. Y, McGoldrick. 294 N. Y. 104, 108, 60 N.E.2d 825. 827: Maner of Colgate­
Palmolive-Pee! Co, y, Joseph , 308 N.Y, 333, 338, 125 n.E,2d 857. 859: Udal! y Tallman, 380 11 S I 16·18, 85
S.C!. 792. 13 L,Ed.2d 616; Prom Reactor Co. v, lntmlaliona! Union of Electricians. 361 U.S. 396. 408.' 81 S.C!,
1529.6 L.Ed.2d 924.) $",, ' a/so ;Mounti!'lg & Finishing Co, case (294 N.Y, al p, 108,60 NE.2d aj P 827),
'statutory construction is tlte function Qfthe courtll 'but where the questioo is one of specific application of a broad
statutory term in a proceeding in which th e agency administering the statute must dctennine it initially, the
reviewing viewing court's function is limited' (NatjQ!!a! Labor Rc!atjQ!!s Board v. Hearst Publications, 322 U.S. I I!'
(3]. 64 S.C, 85]. 860. 88 [..Ed. 1]70).
                                                                                                      Page4of6




                                                 3

For 43 of the 57 disallowed claims, OIG alleges that the type of service reimbursed was not
documented. However, preliminary State analysis orOIG's audit workpapcrs reveals that the
auditors were furnished a schedule of the group services that were provided to each client for
each day the client attended the continuing day treatment (COT) program. These schedules
document the frequency an~ the types of services planned for the individual. Progress notes also
recorded the clienl's general attendance and progress in group therapies. Included in the 010
workpapers are copics of daily attendance sheets which show that the client WIlS present at the
CD": 'program on the date for which reimbursement was claimed.

 Of the 43 disallowed claims noted, 10 were submitted by the New York Psychotherapy and
 COWlscling Center and 5 by the New Horizon Counseling Center. The OMIG, New York State's
 Medicaid regulatory enforcement body, routinely conducts similar cor program audits of
 mental health providers. During two of these reviews, OMIO reviewed 50 claims from New
 York Psychotherapy and Cowlseling Center and 45 claims from New Horizon Counseling
 Center, covering 3 of the 4 years of the 0 10 review period. OMIO auditors revicwed all
 available documentation to support the Medicaid claims including sign-irJs!gn-out sheets, client
 schedules with day and time specification, progress notes and group notes. While OMIG cited
 the providers for some technical violations, of these 95 claims, OMIO concluded that there WIIS
 sullicrent documentation to support that a Medicaid-eligible service had been provided for 100
 percent of the billings. This contrasts sharply with the conclusions drawn by lhe OIG auditors
 which disallowed every claim .sampled for these two providers for a lack of such documentatioll,
 accounting for over 25 percent of the total OIG recommended audit reeovery amount, or
·approximately $22 million. It appears 010 disallowed thc claim unless there was a group
 attendance sheet to demonstrate client participation on the day of service to support a Medicaid
 claim. Unlike 010, OMIO reviewed all of the documentation available from each providcr and,
 based uponthc totality of it, detcnnined that Medicaid services werc provided for ellch of the
 claims reviewed. Had OIG applied the appropriate protocol to the claims which it reviewed, it
 also would have ascertained that adequate documentation exists and that reimbursable services
 had been furnished. OMIG staff are available to meet with 010.

Besides alleging that the type of service was insufficiently documented in 43 of the cases
reviewed, OIG also alleges 8 other Iypes of documentation deficiencies relative to 26 of the
disallowed claims (10 claims contain more than one deficiency), which the State disputes. For '
example, for case #17, 0 10 indicates that the progress note was written by someone who did nol
actually provide a service during thc relevant two-week period. How.ever, review of the case
record verifies Ihat the client's therapist wrote the pwgress note, and there is documentation in
the OIG workpapcrs supporting the therapist's active involvement in providing services during
the period as she made several outreach calls. The progress notes record the client's
participation in groups, skills development activities and social functioning. Under
psychotherapy notes, the client's therapist indicates, "client is exploring taking pre·OED classes
at The Downtown Learning Center. Worker will follow up with client 10 ensure enrollment in
classes." It is clear that the treatment provider was actively engaged with the client during thc
two-week ·pcriod prior to her writing the progress note, and therefore the resultant billing should
not have been disallowed.
The State has hired an independent company, Behavioral and Organizational Consulting
Associates (BOCA), to review each case disallowed by Ihe 0 10. BOCA is a consulting firm that
                                                                                                    Page 5 of6




                                                4


has conducted evaluations, inspections and reviews in behavioral health care since 1988. Its staff
lias direct clinical background with psychiatrically impaired populations, enabling BOCA to
conduct regulatory based rev iews as well as inspections and reviews related to the quality of
menial health treatment programs. The State expects BOCA to obtain further supporting
documentation to refute the disallowed claims, which it will provide to OIG as soon as available.

Recommendation #2:

The Department of Health should work with OMH to issue guidance to the provider community
regarding State requirements for claiming Medicaid reimbursement for CDr services.

Response #2:

The Department continually works with OMH on all matters related to Medicaid reimb).lfsemcnt
and claiming instructions, including CDr services' reimbursement. The Department will work
with OMH and publish any needed clarifications regarding State requirements for claiming
Medicaid reinibursement for CDr services in its Medicaid Update monthly. provider pUblication,
It is additionally relevant to note that OMH has distributcd guidance to CDr providers regarding
claiming Medicaid reimbursement including, "Medicaid Requirements for OMB Licensed
Outpalient Programs" (January 2004), "Continuing Day Treatment Programs, New
Reimbursement Methodology" (January 2009), as well as other guidance documents focusing on
the topics of medical necessity, person-cenlcred planning-and related topics.

Reco mmendation #3:

The Department of Health should work with OMH to improve OMB's monitoring of the CDr
program to ensure compliance with State requirements.

Response #3:

While OMH maintains primary responsibility under State law for overseeing compliance against
State rules promulgated under Mental Hygiene law, the Department will continue to work with
OMH on relevant compliance procedures in order to ensure compliance with State requirements.
0.MH's existing monitoring program helps ensure provider compliance with State rcquiremcnts.
Over the four-year audit period, OMH licensing staff conducted 285 recertification surveys at
170 licensed eDT programs, inchiding 71 surveys at' the 48 CDT programs covered by the OlG
audit. Each was conducted by trained staff from the licensing unit of the OMH Field Office in
the Region where the program is located. Survey visits were conducted on-site and included
observation; interviews with program staff, administrators and recipients; and the rev iew of
program policies and procedures as well as open and closed records.

The surveys utilized OMH's Tiered Certification standards for outpatient programs. The
programs were evaluated on specific outcome-oriented performance indicators within five
compliance categories. Each citation for inadequate performance on an indicator was identified
in a Monitoring Outcome Report sent to the program, with a satisfactory Plan of Corrective
                                                                                                   Page 6 of6




                                                 5


  Action required to be implemented. The length of the program operating certificate was related
. to performance on the standards, with additional weight given to key indicalors.

The OMH monitoring process seeks, wherever possible, to promote improvement in the quality
of services as well as program compliance with applicable regulations. Implementation of the
Plan of Corrective Action is monitored,.with additional visits conducted as needed. Further,
tecIuiical assistance is often provided to improve program performance in specific areas, and
programs with limited duration licenses, resulting from numerous or significant citations, are re­
surveyed on a more frequent basis. When it is determined that a provider has repeatedly failed to
take necessary corrective actions or operates in such manner as to potentially adversely affect the
health or well being of recipients, the program cart face suspension or revocation of the operating
certificate, imposition of a fine or other sanctions.
